<html>
<title> - [H.A.S.C. No. 114-100] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-100]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                      DEPARTMENT OF THE ARMY 2017

                       OPERATIONS AND MAINTENANCE

                           BUDGET REQUEST AND

                           READINESS POSTURE

                               __________

                              HEARING HELD
                           FEBRUARY 26, 2016
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 99-631                  WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                                     


                                     
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York, Vice    JOAQUIN CASTRO, Texas
    Chair                            TAMMY DUCKWORTH, Illinois
FRANK A. LoBIONDO, New Jersey        SCOTT H. PETERS, California
MIKE ROGERS, Alabama                 TULSI GABBARD, Hawaii
CHRISTOPHER P. GIBSON, New York      BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Craig Collier, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Allyn, GEN Daniel B., USA, Vice Chief of Staff, U.S. Army; LTG 
  Joseph Anderson, USA, Deputy Chief of Staff for Operations and 
  Plans (G-3/5/7), U.S. Army; and LTG Gustave F. Perna, USA, 
  Deputy Chief of Staff, G-4, U.S. Army..........................     3

                                APPENDIX

Prepared Statements:

    Allyn, GEN Daniel B..........................................    34
    Wittman, Hon. Robert J.......................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Duckworth................................................    49

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    53
    
 DEPARTMENT OF THE ARMY 2017 OPERATIONS AND MAINTENANCE BUDGET REQUEST 
                         AND READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Friday, February 26, 2016.
    The subcommittee met, pursuant to call, at 8:03 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. I am going to call to order the House Armed 
Services Committee Subcommittee on Readiness. I want to welcome 
everybody this morning.
    I want to thank you all for being here for this Readiness 
Subcommittee hearing on the Department of the Army's 2017 
operations and maintenance [O&M] budget request and readiness 
posture. This is the second of four hearings on the service 
budget request and readiness postures, and today I look forward 
to hearing how the Army's budget request enables a readiness 
recovery plan and where we continue to take risks, calculated 
in terms of both risk to the force and risk to the mission.
    I would like to welcome all of our members and the 
distinguished panel of senior Army leaders present with us 
today. This morning we have with us General Daniel B. Allyn, 
U.S. Army Vice Chief of Staff; Lieutenant General Joseph 
Anderson, U.S. Army Deputy Chief of Staff for Operations and 
Plans; Lieutenant General Gustave F. Perna, U.S. Army Deputy 
Chief of Staff.
    Thank you all for testifying today, and we look forward to 
your thoughts and insights on these important issues.
    The purpose of this hearing is to clarify the Army's 
choices for its budget request, to address funding priorities 
and mitigation strategies, and to gather more detail on the 
current and future impacts of these decisions on operations, 
maintenance, training, and modernization. Most importantly, 
does the Army have the resources it requires in order to 
improve its state of readiness?
    Once again, I want to thank our witnesses for participating 
in our hearing this morning and I look forward to discussing 
these important topics.
    And now I would like to turn to our ranking member, 
Madeleine Bordallo, for any remarks that she may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 33.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, for 
convening this important hearing.
    General Allyn, General Anderson, General Perna, it is good 
to see you all again. And thank you, gentlemen, for your 
service and your leadership and for being here today.
    This is the second fiscal year 2017 budget posture hearing 
we have held in the Readiness Subcommittee this year. As we 
heard from the Air Force earlier this month, one significant 
difference I see between the challenges and opportunities 
facing the Army and the Air Force relates to end strength. 
While the Air Force is growing, the Army is being asked to 
accommodate fiscal constraints by reducing manpower.
    To partially address this, as we have heard at several 
hearings this year, the Army places importance on total force 
integration, and we have heard about what opportunities the 
Army has to leverage the capabilities of the National Guard as 
an operational reserve to enable Active Component forces to 
sustain their readiness and ensure it can meet critical 
requirements.
    I will be very interested this morning to hear about 
specific opportunities you see as you look at the future Army 
and about the challenges the Army has in getting access to the 
Guard and the Reserve.
    We have heard General Milley speak on the need to rebuild 
and sustain readiness as a top priority. Your testimony echoes 
that and I am interested to hear about where the President's 
fiscal year 2017 budget request contributes to the operational 
readiness of our soldiers, but also where training, 
infrastructure support, and other gaps exist.
    Because of the rate that we used our Army over the past 
decade and a half, we know readiness has degraded. But looking 
forward, we need to understand what resources it will take to 
build it back. I recognize that we have asked you to make do 
with unpredictable and unsteady funding resulting from 
sequestration and years of continuing resolutions [CRs], and so 
I look forward to hearing about how Congress can provide the 
resources for our Army to return to full-spectrum readiness.
    Through our discussion today I hope we can gain a better 
understanding of the Army's plan to maintain readiness through 
personnel training and infrastructure improvement.
    So gentlemen, thank you again for your service and I do 
look forward to hearing your testimonies.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Ms. Bordallo. And I yield back.
    Mr. Wittman. Thank you so much for your opening statement.
    General Allyn, I have been told that you will be making one 
opening statement on behalf of all the witnesses, and please 
proceed. And as reminder, your written testimony has already 
been made available to our members and will become an official 
part of our record.

  STATEMENT OF GEN DANIEL B. ALLYN, USA, VICE CHIEF OF STAFF, 
U.S. ARMY; LTG JOSEPH ANDERSON, USA, DEPUTY CHIEF OF STAFF FOR 
 OPERATIONS AND PLANS (G-3/5/7), U.S. ARMY; AND LTG GUSTAVE F. 
       PERNA, USA, DEPUTY CHIEF OF STAFF, G-4, U.S. ARMY

    General Allyn. Chairman Wittman, Ranking Member Bordallo, 
distinguished members of the subcommittee, thank you for 
inviting us to testify on the readiness of your United States 
Army. On behalf of our Acting Secretary, the Honorable Patrick 
Murphy, and our Chief of Staff, General Mark Milley, we would 
also like to thank you for your demonstrated commitment to our 
soldiers, Army civilians, families, and veterans.
    We live in a dangerous world, and after more than 14 years 
of continuous combat, it is tempting to hope that a respite 
lies just over the horizon. Instead, the global security 
environment remains unstable and continues to place a high 
demand on our Army. This is why readiness is and must remain 
the Army's number one priority.
    Today the Army is globally engaged, with more than 186,000 
soldiers supporting combatant commanders in over 140 countries. 
In Afghanistan and Iraq we build partner capacity to fight 
violent extremists; in Africa and throughout the Americas we 
partner to prevent conflict and shape the security environment; 
in the Pacific more than 75,000 soldiers remain committed; and 
in Europe and Asia, Army forces reassure allies and deter 
Russian aggression.
    At home and in every region of the world the Army remains 
ready.
    To maintain readiness and meet the demands of today's 
security environment, the Army requires sustained, long-term, 
and predictable funding. And while the current budget provides 
a modicum of predictability, it is insufficient to 
simultaneously rebuild decisive action readiness and modernize 
for the future.
    To ensure sufficient readiness today, the Army assumes risk 
by reducing end strength, delaying modernization, and deferring 
infrastructure recapitalization and investment. These tradeoffs 
mortgage future readiness.
    We request congressional support to rebuild readiness, 
maintain end strength, equip our soldiers with the best systems 
now and in the future, and provide soldiers and their families 
with quality of life commensurate with their unconditional 
service and sacrifice. With your assistance, the Army will 
continue to resource the best-trained, best-equipped, and best-
led fighting force in the world.
    We thank Congress for the steadfast support of our 
outstanding men and women in uniform, our Army civilians, 
families, and veterans. They deserve our best effort.
    Thank you again for allowing us to join you today and we 
look forward to your questions.
    [The prepared statement of General Allyn can be found in 
the Appendix on page 34.]
    Mr. Wittman. Very good. Thank you, General Allyn. I 
appreciate your perspective there.
    As we look at rebuilding readiness there are a couple of 
things that you lay out in your plan, and that is setting the 
conditions for readiness, or kind of setting the foundation 
upon which you will re-attain readiness.
    Give us your perspective on where you will prioritize 
recovering readiness. What are the timeframes?
    And give us a perspective on where we are taking risks. You 
spoke about risk, but I really want to have some definition of 
that.
    So if you could give us those three perspectives, that 
would be very helpful to us.
    General Allyn. Thank you, Mr. Chairman.
    First and foremost, as you look at our President's budget 
submission you will clearly see the prioritization that General 
Milley has applied in terms of resourcing readiness: 60 percent 
of our budget is committed to our people, both military and 
civilian--44 percent for our military members, 16 percent for 
Army civilians. That 40 percent that is left, the Chief of 
Staff of the Army has rightfully prioritized readiness for our 
Army specifically to meet the current demands, as I highlighted 
in terms of where our force is arrayed.
    Specifically within getting after training readiness, which 
is one of the most quickly eroded and hardest to regain over 
time, we have fully funded our combat training centers to 
provide the decisive action combined arms maneuver training 
that is essential to ensure that we can defeat a peer 
competitor. We are approaching by the end of this year a point 
at which our brigade combat teams [BCTs] will have about 50 
percent of our brigades having more than one decisive action 
rotation under their belt.
    That is how we build the repetitions essential to ensure 
that our leaders can continue to dominate on the battlefields 
of the future.
    Specifically, where are we accepting risk in readiness? We 
do not have sufficient funds to fully fund home station 
training and the installations, which are the power projection 
platforms and the deliverers of readiness each and every day.
    We have had to fund those below the required level, about 
67 percent in terms of our sustainment, restoration, and 
modernization of our installations, which are critical to 
readiness, and we have had to marginalize our modernization. 
Our modernization budget is $23 billion of a $125 billion 
program. It is less than half of any other service in the 
Department of Defense, and it is inadequate to ensure that in 
the future--the near future--that we will continue to have the 
best possible equipment.
    And so we are having to prioritize specific gaps against 
our peer competitors in the near term.
    Mr. Wittman. Thank you, General Allyn. I think that is 
extraordinarily important.
    We had the opportunity last week, Ms. Bordallo and I, to 
travel to the Asia-Pacific to visit with the General 
Scaparrotti there at U.S. Forces Korea, also there in the 
Pacific Command [PACOM], to get the laydown on what is 
happening throughout that particular area, looking at some of 
the transitions that are taking place there, taking the Stryker 
battalion out of Korea, bringing back in an infantry brigade.
    All those elements of rotating forces, trying to get the 
force structure right, are the pieces you talk about trying to 
prioritize, and then making sure that those brigade combat 
teams get the necessary cycle time at the National Training 
Centers and make sure that they jointly train, too, at the JRTC 
[Joint Readiness Training Center].
    Give me your perspective, too. The Army has, I think, a 
couple of different things in place. You talk about 
modernization, which I think is spot on. But another element 
that I think folks need to know about, and that is the manning 
provision.
    We are on track for Army to go to 450,000. Does that track 
to 450,000 allow the Army to accomplish its mission, to meet--
and I understand the COCOMs [combatant commands] are always 
going to request more than that is there, but to meet even the 
basic requirements of issues that we face in places like Korea 
and other areas, where the demand signal seems to grow 
stronger, and stronger, and stronger, because of uncertainty 
around the world?
    Give me your perspective on that as you look at the total 
force structure puzzle in where we are regaining readiness.
    General Allyn. Thank you, Chairman. And I know General 
Anderson will illuminate this a bit more from his perspective 
as our Chief of Operations, but you have put your finger on the 
pulse of the most critical issue for us in readiness in the 
near term.
    From now through at least 2020, the primary limiting factor 
for us achieving full-spectrum readiness is our personnel 
manning. The turbulence that we are undergoing as we reorganize 
our Army as a smaller, more capable force has created 
additional turbulence on top of that which is driven by our 
drawdown, okay? And it is being borne by lower manning levels 
across our formations.
    As you know, during the war we were able to man our units 
above 100 percent in order to ensure they deployed as fully 
manned as possible.
    With a 10 percent non-ready force across the total force 
today, we cannot sustain that in a force that is headed toward 
980,000 as a total force. So manning is a critical limiting 
factor for us, and it is exacerbated by the growth in current 
operations demands for our Army.
    Today, across the joint force, for all combatant commanders 
we provide 46 percent of the annual allocation of forces to 
combatant commanders--more than the rest of all services 
combined. In addition, we provide 64 percent of the emerging 
demand, the year-of-execution unexpected surprises that come up 
that require immediate response. So we are providing trained 
and ready forces to meet both known and unexpected demands, and 
it is coming at the expense of our surge capacity for 
situations like Korea.
    Mr. Wittman. Yes.
    General Allyn. So we place at great risk our ability to 
respond with sufficient capacity for the types of fights that 
very, very, very difficult environments such as Korea will 
require.
    Mr. Wittman. Right.
    General Allyn. So from my perspective, it is absolutely 
critical that we take a very, very hard look at our manning 
level. And I don't see a reduction in current operations 
demands occurring anytime in the near future. It hasn't for the 
last 3 years. It has actually been on the rise, and we believe 
that is placing excessive stress on the United States Army to 
meet the requirements.
    Mr. Wittman. Very good.
    General Anderson.
    General Anderson. Thanks, Chairman. So the issue we have 
right now with the Pacific, it is a 74,000-ish, based on 
assigned forces out there, and the way we accommodate folks 
like General Scaparrotti is through our rotational forces, so 
we have a continual heel-to-toe, as we like to say in the Army, 
from the 1st Cavalry Division at Fort Hood that keeps going 
back in to rotate to give them that presence on the peninsula.
    But the challenges that the Vice is talk about, you are 
talking about, manning levels right now at about 90 percent of 
what the authorized strength is for these units. And of course, 
we are hovering around a 10 percent availability issue in each 
of our formations based on medical and admin [administrative] 
legal type things.
    So when you are talking about getting an 80 to 85 percent 
of a structure that actually is deployable, that continues to 
drain what we have in our readiness available pool to keep 
getting through things like that Korea rotation. And then I 
think you were all briefed on Pacific Pathways while you were 
out there, so you are--you know, so a phenomenal thing that 
General Brooks and crew have put together.
    But again, you are taking soldiers now and leaping them as 
they do a Foal Eagle in Korea, they do a Cobra Gold in 
Thailand, and they do a Balikatan in the Philippines. And that 
is a continual rotational, and a--and how that does--it is a 
great venue for our leaders to get training and development, 
but again, they are away from home and that continues to--as we 
build the readiness we burn the readiness as we leapfrog around 
each of those exercises over the course of 3 to 4 months.
    Mr. Wittman. Sure. Well, it was great to get the laydown 
when were there. We met with a number of folks there, 2nd 
Infantry, and got their perspective on things. And one of the 
things we talked about was, as you talked about, manning and 
availabilities.
    And as you know, when you are trying to put together a 
brigade combat team to go into theater and you have got to 
updraw from other brigades for augmentees, you know, all of a 
sudden you start to see how thin the force is because you are 
moving there and obviously you would like to be at 95 percent 
available to deploy, but many times you are below that.
    And when that is the case then you take away from other 
brigades, and then when it is time for them to go they are 
scrambling to try to put folks together. So it really starts to 
show the openings in the fabric, so to speak, when you have to 
do those things.
    So it was good to get that perspective as we were over at 
USARPAC [U.S. Army Pacific] so that they could give us their 
perspective.
    General Anderson. It does, sir. You know, the challenge is, 
as we try to streamline how we focus units on particular parts 
of the globe, unfortunately we can't do that.
    So, you know, we would like to say like our 4th Infantry 
Division at Carson is all things Europe. Well, the reality is 
the 1st Brigade is the rapid reaction force for NORTHCOM [U.S. 
Northern Command], the 2nd Brigade is going to Afghanistan, the 
3rd Brigade is going to be the rotational unit into Europe, and 
the CAB [Combat Aviation Brigade] is in Afghanistan.
    Mr. Wittman. Yes.
    General Anderson. So you are taking that one--that one 
division has to cover down all those requirements. And like you 
said, typically--and this is more applicable to Iraq and 
Afghanistan, but by force management levels, typically by 
grades and skill sets, you have to cherry-pick multiple units.
    When you look at readiness across the Army, so you say, 
okay, Brigade X is doing this mission--well, the problem is 
what did you have to draw from this unit, this unit, this unit, 
be it a fires brigade, a sustainment brigade, a division 
headquarters? What does it take to fill those requirements to 
deploy? And when you apply that peanut butter across the 
formation, that degrades readiness.
    Mr. Wittman. Yes. Absolutely, absolutely.
    Gentlemen, thank you.
    I now go to Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    General Allyn, as I mentioned in my opening statement, I 
know that you have been working diligently to advocate the 
total force concept, which, as you know, existed before the 
commission reported. So what challenges have you experienced in 
accessing the Reserve Component, and what tools do you need to 
ensure it can be done in an effective, efficient, and 
responsible manner?
    General Allyn. Thank you, ma'am. It is a commitment that we 
have made for the last 3 to 4 years to truly get after the end 
state of the Army total force policy, which enables an 
integrated approach to how we train at home station with the 
same rigor that we employ our total force in current operations 
around the globe.
    I mentioned the 186,000 soldiers that are deployed in 140 
countries today; 25,000 of those are Guard and Reserve 
soldiers, so they are absolutely integrated into the fabric of 
every mission that we execute.
    Specifically where you can help, you will note in the 
President's budget submission we have increased our request for 
12304-bravo funding to enable us to have more flexible access 
to the Reserve Component specifically for emerging missions.
    Where the stress starts to really press down on our active 
formations is in meeting those emerging requirements for which 
the time constraint that we have does not enable us to prepare 
and deploy a Reserve Component unit to meet the requirement.
    The 12304-bravo funding would have us with greater 
flexibility to leverage that great Reserve Component capacity 
for missions beyond just those in OCO [overseas contingency 
operations]-funded areas of operation--for instance, Pacific 
Pathway exercises, where there is a perfect match----
    Ms. Bordallo. Yes.
    General Allyn [continuing]. But we do not have the manning 
or authorizations and funding to match the requirements. So 
that is an area where you could give us great assistance, 
ma'am.
    Ms. Bordallo. Well, thank you, General. We will take note 
of that.
    And I thank you and your colleagues for working to ensure 
that the THAAD [Terminal High Altitude Area Defense] on Guam is 
made a permanent fixture. Thank you for that. As the front line 
against persistent threats emanating from neighbors in the 
region, having a continuous capability to deter and, if 
necessary, neutralize these threats is very reassuring to the 
people of Guam.
    Moving forward, do you see cost-saving opportunities for 
this mission while, of course, ensuring the necessary 
requirements are met?
    General Allyn. Well, ma'am, I think we are in the 
environment of finding the most efficient and effective way to 
execute every mission that we have and make the best use of 
every dollar that you appropriate or you authorize to us. So 
yes, we will review that mission just as we do every other and 
ensure that we are getting best value for the missions that we 
have.
    Ms. Bordallo. Thank you.
    General Anderson, you have spoken about the need to 
leverage the National Guard as an operational force. What 
opportunities do you see to do this? In other words, how can 
the National Guard gain training and operational experiences 
while also enabling the Active Component to fill its mission 
requirements?
    General Anderson. Thanks, ma'am. There are tons of 
opportunities.
    So what the Vice talked about first of all, as we talked 
about previously, number one is in the year of execution. So 
based on the 12304-bravo--and we are getting up to about 1,800 
man-years now, which is good, so we thank you for that. That 
has gone from about 1,636 to about 1,840 which is--that is what 
we need so when in time of crisis we can very easily use them 
based on who is in the top tier, like the 116th Brigade right 
now, and the 234 in Minnesota, and 116th from Idaho. That is 
our top two tier Guard BCT, so how are we able to grab them and 
use them in terms of crisis?
    The bigger issue we are dealing with right now is how do we 
program Guard units for known requirements across the COCOMS, 
like we are doing with the 36th Division going into Kandahar to 
be the TAAC [Train, Advise and Assist Command] South for 
Afghanistan, and how we are going to put the 29th potentially 
into Jordan to be the Combined Joint Task Force headquarters 
there.
    We need Guard divisions and Guard BCTs to lessen the slack 
because right now we--our BCTs are at a--on or about a 1:1.6 
boots-on-the-ground time deployed to dwell back home, and we 
need to get that reduced. And the only way we are going to do 
that, assuming that our emergent and our continuing 
requirements stay about the same, the only way we are going to 
lessen that burden on the Active Component is to use the 
National Guard.
    Ms. Bordallo. I also have another question for you, 
General. The $1.3 billion request for installation support is a 
historic low and indicates that the Army is continuing to 
accept risk especially in the FSRM [facilities, sustainment, 
restoration, and modernization] account. Though the budget 
overview states that it funds activities that contribute to 
unit readiness and quality of life, it also notes assumed risk 
in the sustainment and modernization of our facilities.
    So can you speak to the primary, secondary, or other 
impacts that reduced FSRM spending and how it will have an 
effect on our soldiers and facilities? How long will it take to 
build back this lost infrastructure readiness?
    General Anderson. I don't know how long it will take to 
build it back. The problem is this is a continuum, and again, 
you are talking to guys here that have been commanders of 
installations for years. We have a huge backlog. So as the guy 
that commanded Fort Bragg after him, if you are talking about 
an installation that has been 50 percent funded to that 
sustainment, restoration, modernization account for 3 years in 
a row and now we are on year number 4, when you look at the 
backlog of infrastructure--so again it runs the whole gamut.
    You mentioned quality of life, and that is all things that 
affect soldiers, families, and civilians. But from a training 
and readiness perspective, as you are watching runways crumble, 
ranges fall apart, training system support issues, the backlog 
of that is starting to have, again, a--that has a direct impact 
on readiness as it affects units' ability to go out and train 
based on what the facilities enable them to do.
    And so that--I am going to use the word--that crumbling 
infrastructure, I think as you go and visit these installations 
and watch, it is the same at Schofield as it is at Fort Bragg 
as it is at Fort Carson, Colorado.
    And when you watch what that effect is having on us and the 
catch-up rate, it is hard to predict what the catch-up rate is 
going to be. But the direct impact on the ability to go out 
when targetry simulators--we have a huge problem with all of 
our simulators and a way that we train out, because of the--how 
we manage that home--as the Vice talked about, that home 
station training, one of the ways you mitigate what it takes to 
go out and shoot live rounds or fly live helicopters or drive 
live tanks is you go in the simulators.
    Well, our software and the modernization--we are three 
generations behind on the software in those simulators. So it 
is a wide open question, ma'am, and it affects every single 
piece--part of that, from how do you physically outload at an 
airfield, to how do you go shoot something at a range, to how 
do you go into a simulator to make sure that you are reducing 
the time it requires to go out in the field based on what you 
can do back on the installation. But our home station, our 
simulation centers, and our mission command centers are all 
woefully inadequate in terms of capability to keep us up to the 
levels we would like to be at.
    General Allyn. I will just give you a couple of data points 
on that. Our overall infrastructure backlog is $7 billion, and 
that is about 20 percent of our facilities are in poor or 
failing condition, alright?
    And you ask yourself, well, why--how could you as a senior 
commander allow that to happen? Again, it is the best of poor 
choices. And if your choice is to send a soldier trained and 
ready to defeat the enemies of our country in a known mission 
and the only way you can pay--fully pay for that is to reduce 
infrastructure restoration, that is the choice that we are 
faced with.
    And we are making what we believe is the right choice to, 
you know, protect and preserve the lives of our soldiers for 
known missions. And it is not a good choice, but it is the best 
that we have.
    Ms. Bordallo. Well, and I thank you, Generals, for your 
very direct answers.
    General Perna, I have a quick question for you. How 
critical are the Army's organic depot maintenance facilities 
and capabilities to restoring readiness?
    General Perna. Ma'am, thank you. I think they are integral 
to our readiness--our equipment readiness. They are very 
important.
    As you know that before the war we were at a certain level, 
and because of the great support by you and many others we were 
able to double that capability to meet the requirements on the 
battlefield--two battlefields--and, in fact, sustain over a 
reset 3.9 million pieces of equipment for the entire portion of 
the war.
    I think it is intricate in our future readiness as we 
require to reset the equipment that might be currently in Iraq, 
Afghanistan, we used in Africa. So the importance of 
maintaining this capability is essential to our readiness. 
Thank you.
    Ms. Bordallo. Thank you very much.
    And I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony today and for your 
service to our Nation.
    I am interested to hear any updates or impacts the fiscal 
year 2017 budget request has had on decision-making regarding 
ARI [Aviation Restructure Initiative]. The fiscal year 2016 
NDAA [National Defense Authorization Act] specifies that the 
transfer of 24 Apaches to Fort Drum will occur from July to 
August of this year.
    And based on the fiscal year 2017 budget request, is it the 
Army's position that all pending fiscal year 2016 Apache 
transfers will take place as planned? And is there anything in 
the budget that suggests there will be a delay or a change 
based on readiness issues?
    General Allyn. Vice Chair Stefanik, the answer is no. We 
will execute those transfers on time, on schedule. General 
Kadavy has got that plan laid out and that transfer will occur.
    And I appreciate you bringing up ARI. It is important to 
update you that the divestiture of our oldest airframes has 
continued on schedule and enabled us to take very constrained 
resources in our aviation modernization program and ensure that 
they are going into our most modern, most capable aircraft.
    So it is vital that we do that, but the 10th Combat 
Aviation Brigade will receive its Apaches on schedule. And we 
appreciate your support for us continuing to do that.
    Ms. Stefanik. Great. Thank you for answering that on 
record.
    Broadly, I recognize the Army has not taken a position on 
recommendations from the National Commission for the Future of 
the Army. But if their recommendation that the National Guard 
maintain 72 Apaches were to be considered, how would that 
impact current plans for ARI?
    General Allyn. Obviously we are very appreciative of the 63 
recommendations that address 62 specific issues and areas of 
focus for the future of our Army. A very detailed report, an 
incredible amount of analysis and assessment, and our team of 
National Guard, Army Reserve, and Active Army brigadier 
generals are currently reviewing every one of those 
recommendations.
    And we have prioritized the aviation-specific 
recommendations because, first of all, they are the most 
costly, and they have the longest-term implications to the 
future of our fighting capability. So we will be bringing those 
forward to the Chief of Staff of the Army and the Secretary of 
the Army for the--for a decision in the very near future.
    Suffice it to say there were no resources provided for 
these recommendations, and many of them are very high-dollar--
in the billions--cost, you know, impactful. And so we are 
analyzing both within our program and with additional dollars 
where we will need help to achieve the end state that has been 
prescribed.
    We will continue to divest our old airframes, as prescribed 
by ARI. We will continue to ensure that all of our combat 
aviation brigades are as capable and modern as possible.
    In the near term the retention of Apaches in the National 
Guard, absent additional funding, will slow our modernization 
program for Black Hawks and Apaches. There is no other way 
internal to our program to fund it.
    Ms. Stefanik. Thank you, General Allyn.
    I yield back.
    Mr. Wittman. Thank you, Ms. Stefanik.
    We will now go to Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today--excuse me.
    General Allyn, in your testimony you state that less than a 
third of Army forces are at acceptable levels of readiness to 
conduct sustained ground combat in a full-spectrum environment. 
One of my colleagues who is not on this committee often, you 
know, directs questions to folks and say, ``Is this decision 
made because of budget or because of security?''
    We recognize that all decisions are made both because of 
budget and because of security and that is appropriate, but 
this number does--this level of readiness does seem alarming to 
us. Can you comment from a historical perspective kind of what 
you would see as the acceptable level of readiness? And then I 
have a follow-up question for you.
    General Allyn. Well, thanks, Congressman Peters.
    It is not acceptable, not given the global environment that 
we operate in. And I appreciate your recognition that it goes 
beyond just manning, training, equipping, and leading. All of 
those are critical, but our ability to build surge capacity and 
remain globally responsive means that we must be able to build 
sufficient readiness over and above the commitments to current 
operations. And for the past 6 to 8 months we have been 
consuming readiness as rapidly as we are generating it.
    So our commanders in the field are absolutely attacking 
this as job one, in accordance with General Milley's number one 
priority of readiness. But absent a reduction in global demand 
or an increase in capacity, it will be very, very difficult for 
us to make the type of headway we must make to have sufficient 
readiness for the smaller Army that we are headed toward.
    Mr. Peters. Can you also imagine that we plussed up the 
Army's budget from--by 10 percent, or extra $15 billion 
available to you to spend on readiness, which we heard in the 
retreat this week was the number one priority, at least for the 
Army. What would be the specific places where you would like to 
see that applied right away?
    General Allyn. Well, Congressman Peters, I would go through 
quite a laundry list here to walk all the way through that, but 
suffice to say we do have prioritized unfunded requirements 
specifically addressing both readiness, installation support, 
personnel, and manning. And so, given that delivering readiness 
requires a balance across all aspects of man, train, equip, and 
lead, that is where we would apply that.
    But were we to receive additional funding, we would clearly 
raise to a very rapid discussion specifically getting at the 
National Commission's recommendations, which do require 
additional capabilities not currently resident in our program, 
that growth would have to be a point of discussion in that 
increased budget were you able to find it for us.
    Mr. Peters. Alright. Well, really appreciate it. I think we 
have learned a lot this week, both at the retreat and here, and 
we appreciate your service and your being here today.
    And, Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Mr. Peters.
    We will now go to Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Thank you, Generals, for being here.
    Just very quickly, can you shed any light on what Army 
Guard cyber teams may be doing or how they are approaching the 
problem?
    General Allyn. Well, I appreciate you giving us an 
opportunity to talk about where the Army is in developing our 
cyber capability. We are well on the path toward achieving the 
minimum capability that Admiral Rogers has prescribed for each 
of the services.
    In fact, by the end of fiscal year 2017, the end of this 
budget we are talking about, all of our 41 cyber mission teams 
will be fully operational. We have 31 at initial operating 
capability [IOC] today--or 33, I am sorry--and we will be fully 
operational by the end of 2017, which is his prescribed 
requirement.
    Specifically for the National Guard and the Army Reserve, 
we have--we are building 21 cyber protection teams to provide 
critical cyber defense for critical infrastructure and for our 
systems here in the homeland. We have just begun that process.
    You will note in the President's budget submission that 
there are procurement dollars applied to those cyber protection 
teams to enable us to properly equip as we begin to train those 
teams. But we will be on a path toward initial operating 
capability as we move forward here in providing both a cyber 
offense and cyber defense capability to ensure that our Nation 
can both be decisive and protect our capabilities here in the 
homeland.
    Mr. LoBiondo. So with all the pain and suffering that the 
budget is causing, is it causing the same sort of degree of 
pain and suffering in the cyber security area?
    General Allyn. Well, if you will note, Congressman, in the 
budget submission cyber is one of the only growth areas in our 
budget. It is absolutely a critical capability that we must 
continue to develop.
    It is a long-term commitment that we are making. We are 
standing up a cyber center of excellence at Fort Gordon, 
Georgia, despite having a MILCON [military construction] budget 
that is the lowest since 1999. We are focused on fully 
developing that capability to ensure that we can train and 
sustain a trained and ready cyber mission force and build the 
cyber protection teams that are needed by the Guard.
    But is the dollar allocation sufficient to get there as 
fast as we want to get there? No.
    Mr. LoBiondo. Thank you.
    I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. LoBiondo.
    We will now go to Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    General Allyn, I don't want to speak for anyone else on the 
committee but I have taken your comments today and in previous 
meetings to heart and feel very strongly that we need to have a 
much larger force size than the one that we are currently on a 
trajectory to achieve, and we need to fund those areas in 
modernization and readiness that you describe at risk today at 
some point in the future.
    I think the challenge for me--you are giving us your best 
professional advice, which is critically important; we now have 
the task of convincing our colleagues and explaining to 
constituents why this is important. And so a problem at some 
point in the future is a little bit more difficult to bring 
home than something that is today at risk or a consequence that 
we can point to.
    And I don't know if this is something that we could answer 
in this hearing, but to the degree that you can provide us with 
those scenarios or anecdotes or facts, I think that is going to 
make our job easier in terms of getting the resources to you 
and the Department of Defense to ensure that we don't run into 
these problems in the future.
    One of the points that you have made in your testimony and 
before is that within the Army we are at $500 million over in 
excess and underutilized capacity. Where would you apply those 
dollars if--and I know BRACs [base realignment and closures] 
don't work this easily or cleanly, but if that money could be 
transferred to some other use, where would you put it?
    General Allyn. Well, thanks, Congressman, and thanks for 
your support of our Army. It is very much appreciated. We 
understand our responsibility to better describe the impact of 
underfunding our Army for today and the future threats that we 
face.
    Specifically to your question of the $500 million being 
wasted on excess infrastructure, that $500 million would go a 
long way toward helping increase the sustainment, restoration, 
and modernization divot that is currently programmed into our 
budget. We have only funded at 67 percent of known 
requirements. And, of course, nature has a way of causing 
things unexpectedly, like the leaking front window in my own 
house during this recent rainstorm.
    So we have to take very hard decisions about where we spend 
our money. And for the Army we have 21 percent more capacity 
than the program force will ever require. We are doing 
everything we can to tighten our belt internally, but we really 
must make very good decisions rather than waste $500 million 
for facilities that are not being used in our Army today.
    Mr. O'Rourke. Makes a lot of sense, and I hope that the 
political will and political collaboration exists or will 
develop to allow us to do that because I think you have made 
the case why it is so important that we transfer that money to 
where it can be better and more effectively utilized.
    In your testimony you talk about selective modernization 
efforts and you mention Army warfighting experiments. Could you 
go into a little bit more depth and detail about what that 
entails?
    General Allyn. Well, both our network integration exercises 
or evaluations and our Army warfighting assessments, as you 
know, leverage the great capacity at both Fort Bliss and White 
Sands Missile Range from New Mexico, and they are absolutely at 
the center of how we build the future force. We are 
specifically focused in our Army warfighting assessments on 
exercising new concepts, new ways of employing our force, 
leveraging our current capabilities and emerging capabilities 
that are being developed in industry.
    We have learned some incredibly valuable lessons just in 
this past year on the exercises that we have done at Fort 
Bliss, Texas, and we are applying those both in the development 
of our future force and the operational concept to defeat peer 
competitors.
    And I think what is also very important is every one of 
those exercises have been joint. We have often had the United 
States Marine Corps participating with us; we have always had 
the Air Force participating with us; and they have all been 
multinational with our closest allies. And that has enabled us 
to tackle the really difficult problem of interoperability.
    We know, given a smaller force, to win in the future it 
will be with our allies and partners, and they must be able to 
interoperate with us. We must share a common operating picture, 
and all of those are being exercised routinely at our Army 
warfighting assessments.
    Mr. O'Rourke. Thank you, General.
    I yield back.
    Mr. Wittman. Thank you, Mr. O'Rourke.
    I just want to remind folks the $500 million figure that 
you spoke of--we asked for a report on infrastructure analysis 
from the service branches. It was supposed to come to us with 
the President's budget. We have not received it yet; we 
understand that we will get it from the Pentagon.
    So that should be the reflection on what the capacity 
numbers are. There are a lot of other numbers floating around 
out there, and I know the previous ones have been based on 
parametric analyses of the 2005 BRAC.
    So that is why we have asked for the most up-to-date 
numbers and we are expecting to get them from the Pentagon. So 
I want to make sure we are not too fast and loose with numbers.
    I understand what you want to get at, but I want to make 
sure, too, that we are going to get that based on information 
from DOD [Department of Defense]. Thanks. Thanks, appreciate 
it.
    General Allyn. You will see those numbers reflective in 
that report for the United States Army, sir.
    Mr. Wittman. Good. Very good. Thanks. Thanks, General 
Allyn. We appreciate it.
    Now we are going to go to Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And once again, it is always great to see all of you here.
    And I come from a little different perspective. When we 
have a drawdown in troops and when we have a lower number than 
what we are hearing from all the COCOMs and what is, you know, 
the requirements or needs, it really does put a stress on our 
Army today.
    You know, when you have one son who has been deployed, you 
know, not combat lately, but, you know, bounced from Australia, 
then to South Korea a few weeks later, then to Fort Bliss a few 
weeks later, and that starts adding up, and then, oh, by the 
way, you just got transferred and you are in Africa for a 
period of time.
    And that is across the board. It is just not my kids, but 
it is, you know, it is all of our soldiers. And I worry about--
and you talked about it briefly--what it really does to our 
readiness, because we are constantly--particularly, from the 
family front, it is tough on their support mechanisms.
    So, I mean, can we maintain this level of training? 
Because, hey, he just got back from NTC [National Training 
Center] you know, 3 weeks ago. So can we honestly keep that 
level up without really degrading our force in total across the 
spectrum?
    General Allyn. Well, Congressman Nugent, you have very good 
spot reps [reports] coming from the force. It is an exciting 
time to be a soldier and a junior leader, and I----
    Mr. Nugent. And let me explain something. They love it----
    General Allyn. I know it.
    Mr. Nugent [continuing]. You know? But then I also have to 
hear from the girlfriend and wife and, you know, I mean, so 
they are loving it.
    General Allyn. And that is why I say it is an exciting time 
to be a junior leader and a soldier in the United States Army, 
because you are out there globally responsive. The brigade that 
is taking over the mission this morning in the Republic of 
Korea last year at this time was operating in Eastern Europe, 
in Lithuania, Latvia, and helping General Hodges deter Russia.
    Mr. Nugent. Right.
    General Allyn. So those leaders have become quite expert in 
the potential battlefields of Eastern Europe and now they are 
in the Republic of Korea.
    What we are hearing from our soldiers is exciting for our 
young soldiers. This is why they joined. They joined to make a 
difference for our country.
    But you raise the point that we are we are bearing the 
burden of this high OPTEMPO [operations tempo] on the backs of 
our soldiers and our families. And it is a burden they bear, 
and they are extraordinarily resilient, but there is a cost.
    And we are concerned about that. We are hearing from our 
mid-grade noncommissioned officers [NCOs] and from our mid-
grade officers that, ``I don't know how long I can keep this 
going,'' alright?
    So that is a very huge part of our discussion about the 
stress on our force and what we have to do as we continue to 
support the great demands as our Nation leads around the globe.
    Mr. Nugent. Well, you know, one of things that my wife and 
I, you know, relied upon when we had, you know, sons deployed 
to Afghanistan and Iraq is the fact that they are the best-
equipped, best-led. But, you know, we saw the stress that on 
some initial deployments to Afghanistan where they were there 
for 15 months and 16 months. And obviously, that is a cycle you 
shouldn't be in.
    And I worry that people think of the Army as this machine. 
In a lot of ways it is. But the parts of the--the non-machine 
parts are the parts that are most important to all the 
services, and that is the people that actually, you know, put 
the uniform on and go out to do the fight.
    And I worry that, you know, we are going to lose some of 
our best and brightest. Now, I know some of the--you know, my 
sons' friends, you know, that have left because of that kind of 
stress.
    And I hate to see us lose that kind of talent, because 
Members of Congress and the general public do not see the 
person that wears the uniform as a person. And I think we need 
to start talking about that, because that is what makes the 
Army great--are the people that you have out there--and you 
talked about it--the men and women that actually put uniform on 
to go out to fight.
    General Allyn. Well, thanks, Congressman. And, I mean, I 
have difficulty adding to what you have just professed.
    We are the best Army on the globe because we have the best 
soldiers and the best leaders. And frankly, we had the greatest 
bench of combat-seasoned leaders our Army has ever had, and it 
is why I remain confident about our ability to sustain our 
readiness for current operations.
    I share your concern for the long-term implications. I will 
tell you, though, that the vast majority of our leaders want to 
remain on this great professional team that we have in the 
United States Army.
    Mr. Nugent. Absolutely. I----
    General Allyn. Our retention rates are really quite high. 
And frankly, it is our retention rates that, in some cases for 
some of our components, that are offsetting some of the 
recruiting challenges that we are facing today.
    So the soldiers that are on this team, they want to stay on 
this team.
    Mr. Nugent. Right.
    General Allyn. And that is why they deserve our best 
support.
    Mr. Nugent. Absolutely.
    Now I yield back. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Nugent.
    And we will now go to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I certainly appreciate your being here. Thank you so 
much for your dedicated leadership.
    I am going to ask you to cheerlead a little bit more here 
perhaps, then, because I think that looking at the four pillars 
of readiness, leaders leading has got to be the most critical. 
And it is a source of concern and a source of worry.
    Are we doing anything different--do you think we should be 
doing anything different in terms of personnel management, so 
that we do have leaders who are able to stay and lead at home 
stations in addition to their deployments?
    We also have a kind of fracturing of people going and 
coming back, and having to break up the unit from time to time. 
Does that require something different in this time and making 
sure we have that kind of sustainable leadership?
    General Allyn. Well, Congresswoman, I will highlight the 
fact that leadership is absolutely a core focus for our Army. 
It is an integral component of delivering readiness. You will 
see in our budget that we have prioritized the professional 
military education, both for our noncommissioned officers and 
for our officers across the total force.
    We have implemented a Select, Train, Educate, and Promote 
program for our noncommissioned officers so that they must go 
to a professional military education before they can be 
promoted, so that we remain the most professional force that we 
can possibly be.
    And the talent management initiatives that we have 
underway, we have a--one of our rising three-stars has been 
leading our talent management task force to specifically 
identify those policies, programs, and procedures that we must 
adapt to continue to develop the types of leaders we need for 
the future.
    So it is absolutely a precision focus for the Chief of 
Staff of the Army and the Acting Secretary of the Army and will 
remain so as we move forward, ma'am.
    Mrs. Davis. General Anderson, you look like you wanted to--
--
    General Anderson. I always like talking to you, ma'am. Yes.
    [Laughter.]
    I think it is a cultural shift. So what the Vice is talking 
about over these last 15 years, as we watch us in the 
organization that I lead, is people taking shortcuts. We 
truncated courses; we stopped making people get certified for 
the position before they assumed it. We always say we couldn't 
afford to take you out of the formation; we prioritize the 
needs of the unit above the needs of the individual, which 
contributed to that leader's development.
    So now what you see, based on the Select, Train, Educate, 
Promote system, now we see a--going back to the way we used to 
do this, where you cannot assume a position before you get--go 
to the appropriate school for that position. But we don't 
necessarily jeopardize individuals' training over the--the unit 
taking precedence over the individual now.
    Where we do break them out of the formation is to make sure 
they go into these programs so we take the time to develop them 
both from an officer and a noncommissioned officer perspective, 
and even the warrant officers now. The warrant officers didn't 
have until this year a program that replicated what we do with 
the officer and noncommissioned officer corps.
    So in the training domain, and what Bob Brown is doing out 
there at our--at Fort Leavenworth, we are taking the time now 
to refocus and make sure that you have the prerequisites before 
you go into the position, which was not--has not been the case 
these past 15 years.
    Mrs. Davis. Yes. Do you think we are going to see some 
differences as well in terms of, you know, really acknowledging 
the life balance issues that our men and women need in order to 
stay in the service and to be able to engage for the long haul?
    General Anderson. As we go out and talk to our pre-command 
course at Leavenworth, it is all the incoming battalion 
commanders, battalion command sergeant majors, brigade 
commanders, brigade command sergeant majors, and a big focus of 
that discussion is restoring balance, and how do you put--so 
back what Congressman Nugent is talking about, that strain and 
demand, but how do you as leaders figure out what the 
appropriate balance is between allowing people time for their 
development, for their well-being, their resiliency, and 
contributing to the collective training of a unit, whatever 
particular level you are talking about?
    But how do you manage that and balance that? And it cannot 
be one-size-fits-all, and how do you implement that based on 
what type of an outfit you are? Because it does vary based on 
what type of a unit you are and what your missions--assigned 
missions are, and how you train and develop that force.
    So it is something we try to inculcate and have a 
discussion about because it can't--you know, the old ARFORGEN 
[Army Force Generation] model everybody was on a rote model, 
where you knew what your preparations were going to be prior to 
deployment, what your gates were going to be, how you kind of 
march through all of those over the course of 12 months, and 
then deploy.
    That is not the Army we have today.
    General Allyn. And I will highlight, ma'am, that Sergeant 
Major of the Army has a fingertip pulse on our force. He is 
around the Army virtually 4 to 5 days a week, touching the Army 
at all components in all locations to get the feedback of their 
concerns in this specific area as well as the touchpoints that 
we have at the pre-command courses. We are listening and we are 
trying to adapt within the constraints that we have.
    Mrs. Davis. Great. Thank you.
    Thank you, Mr. Chair.
    Mr. Wittman. Thank you, Mrs. Davis.
    We will now go to Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    I want to go back to something you brought up earlier about 
10 percent across the military being non-ready. Now, are you 
talking about training-wise or health-wise? What is that 10 
percent?
    General Allyn. It is about 80 percent medical, so medical 
non-readiness, predominantly in lower extremity injuries, but 
it runs the gamut of medical deployability. In some cases it is 
physical limitations.
    There is a very small fraction of it that is 
administrative. There is a small fraction of it that is legal. 
But the vast majority of it is medical.
    And in fact, we have about 15,000 soldiers on average each 
year in our disability evaluation system, and we are--we have 
driven that timeline to transition somebody to the VA 
[Department of Veterans Affairs] for care for the long term 
down significantly, but it is still right now on average for 
the active force it is about 7 months that it takes to 
transition someone out of the Army. And those who enter the 
disability evaluation system, the vast majority of them, in the 
range of 90 percent, do not return to active service.
    And so we need to continue to streamline that process 
because the bottom line is in the squads, platoons, and 
companies of our Army, until that soldier transitions out we 
cannot put a replacement in there.
    Dr. Wenstrup. Yes. And I was doing some work with OTSG 
[Office of the Surgeon General] this past summer, and for the 
Army I think it may even be higher than the 10 percent, which 
is a concern. And I don't think people recognize that 
necessarily up here that when we talk about a certain number, 
well, when you take 10 or up to 20 percent off of that number 
it is even lower than we think, and I think it is important for 
us to recognize that. And then, of course, on the medical side 
it is our job to try and reduce that number any way that we 
can.
    And the other thing, I was glad we talked a little bit 
about BRAC today because we are putting money out there 
basically for nothing, in a lot of ways, and whether it is a 
partial reduction of a base or a complete closure. But we 
talked a little bit before and I would like you to comment, 
too, on possibilities of streamlining. For example, when we 
recognize a capability gap and there is a problem here in 
modernization or just out-and-out equipping, the process that 
you have to go through to get to that, how much of that can we 
cut out?
    And I know it is hard to--I am almost speaking anecdotally 
here, but there has got to be simpler ways and cut through some 
of this infrastructure of non-combatant personnel to help us on 
the other end.
    General Allyn. I think you are asking me about how do we 
streamline acquisition. Is that the----
    Dr. Wenstrup. Well, basically, you know, from----
    General Allyn. Right.
    Dr. Wenstrup. I am using this example here of, you know, 
you recognize a capability gap and how long it takes to get to 
a total Army analysis, right? So----
    General Allyn. Well, the bottom line is that all of our 
processes need to be streamlined. We are tackling them with 
rigor. We are tackling them by putting commanders back into the 
process that was largely staff-driven during the height of the 
war.
    Commanders are pretty good at driving outcomes in a 
reasonable amount of time. But as you look at acquisition 
reform, quite frankly, it is the most complex problem I have 
tried to wrap my head around in 35 years, and it has taken a 
number of years for us to bureaucratize it to the point that it 
is today, and it will take us a few years to streamline it to 
become as responsive as it must be.
    I will tell you that we have absolute focus from our Army 
acquisition executive throughout our uniformed side of the 
service to get at--to tackle this problem. And one of the 
specific areas that I am optimistic about is standing up the 
Army Rapid Capabilities Office to enable us, once we identify a 
capability gap and we know of an off-the-shelf capability that 
will address that gap, to enable us to put those two together 
in matters of months, not years, to deliver that capability to 
our soldiers in combat.
    Frankly, as a commander in combat I watched us do that with 
modernizations to the MRAP [mine-resistant ambush protected 
vehicle]. As enemy adapted their tactics and we needed to 
modify systems, we literally turned capability around in 6 
months, and never lost another soldier to that enemy tactic. 
That is what we have got to be aware of.
    Dr. Wenstrup. I saw that in theater, and that just amazed 
me, compared to how most things go, that we were able to get 
that done in that short a time.
    Thank you, and I yield back.
    Ms. Stefanik [presiding]. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    General Allyn, in your written testimony you explained that 
in order to prioritize readiness the Army has assumed risk in 
installation modernization and infrastructure improvements, 
that many MILCON sustainment and restoration efforts have been 
delayed or canceled. You also estimated that you are carrying 
an estimated burden of around $500 million.
    And I know that a lot of savings could come from a BRAC, 
but back in December we had a hearing with General Halverson on 
infrastructure investment and the readiness implications. I 
asked him about carrying costs and how the service is managing 
excess capacity, and how Congress could help put--be helpful 
legislatively as you try to manage these facilities outside of 
a BRAC.
    So one of the things that he said was that it would be 
helpful for the Army would be to be given additional 
flexibility for converting facilities to new uses with O&M 
funds. And my understanding is that you can use O&M funds for 
renovations, but depending on the type of work conducted you 
may trigger a cost cap. And this encourages installations to 
make smaller, less efficient modifications that may not fully 
meet their needs, and that sort of strikes me as throwing good 
money after bad.
    And so the alternative to MILCON funds--is to use MILCON 
funds, which don't come with the cost caps but do take a lot 
longer for approval and, as you point out in your testimony, 
may be canceled or delayed. And I recognized that the Army as 
well as other services have excess and unused facilities. I 
know this from my work at VA, how much unused installations 
there are in the Federal Government.
    I think everyone here would agree that it is critical we 
maximize a return on our investment we are making. So I want 
some actionable items.
    And I don't know if this is a question for you or maybe for 
General Perna, because I think it might be more G-4. Could you 
walk us through the impact the current statute has on the 
Army's ability to manage its facilities? What specific 
statutory changes would allow you to better manage that 
infrastructure? And most importantly, what are the projected 
cost savings achieved by treating conversion projects as repair 
projects in statute?
    General Allyn. Well, I will let Gus back me up here because 
this is very much a--in his shot group. Having read the EXSUM 
[executive summary] of your session with General Halverson 
earlier this year, we absolutely would benefit from more 
flexibility in how we apply the limited resources that we have 
to make best use of the facilities that we have.
    For those that are confused about what we are talking 
about, for instance, if a barracks facility is no longer needed 
because our Army has gotten smaller, in order for us to use 
that for another purpose we are very restricted under the 
current legislation. And so you end up leaving a newer facility 
vacant and use an older facility that is not meeting the needs, 
and you are dumping restoration dollars into it and in large 
cases you are using energy inefficient facilities because you 
don't have the authorities necessary to modify.
    So I will offer that as a top level, and let General Perna 
reinforce.
    General Perna. Ma'am, acknowledge all that the Vice just 
said to you, and we do think that it is very restrictive. In 
fact, we believe we have to come back to you to get permission 
to execute those funds in some type of barracks-to-office 
transition.
    And then we go back to MILCON, and the problem with MILCON 
is the list is very long. And then we have to prioritize to 
that end, and so things that might be very powerful at one 
installation, would have great advantage to doing so, does not 
compete well with the total Army requirements.
    So the flexibility that General Halverson talked about, 
where leaders are involved, to make those decisions would be 
very helpful.
    Agree with you that we should not be throwing pennies to do 
light changes. We should have leadership involvement and make 
the difficult choices for the things we want to add.
    That is all I have.
    Ms. Duckworth. Thank you.
    So I would like the Chair to know that I plan on working 
legislation to deal with this issue.
    And, General Perna, is there any way that you could get--
not necessarily today; perhaps a later time--some projected 
cost savings that would be--that might be achieved by treating 
conversion projects as repair projects in statutes?
    General Perna. Absolutely, ma'am. I will work with General 
Halverson and his team and we will get that for you.
    [The information referred to can be found in the Appendix 
on page 49.]
    Ms. Duckworth. Thank you. I appreciate that.
    I yield back.
    Ms. Stefanik. Mr. Russell.
    Mr. Russell. Thank you. Thank you, Madam Chairman.
    And good morning. I guess the biggest thing I am trying to 
wrap my head around with the budget constraints that we have 
placed on the Army is how, if we force the size of our force 
down to 450,000, what that will do for our most experienced 
officers and noncommissioned officers.
    As we all know, it takes a long time to train the mid-level 
NCO, the mid-level officer. We can cut troops, but we can't 
create--we can create privates rather quickly; we can't create 
the experience level. And as we see very experienced 
headquarters, units, and flags fold due to a reduction in the 
size of the force, we are losing capacity that will not be 
built perhaps in 4 to 6 years, depending upon the circumstance.
    My colleague, Mr. O'Rourke, I applaud him for saying that 
we have reached a point where we have cut way too much. And I 
hope that all of us on the Armed Services Committee will unite 
around this issue. I know my colleague, Mr. Gibson, and I know 
he is going to speak to this.
    We are wanting to hold the baseline where it is at now and 
like to even see it increase. My own personal view is that when 
we crossed the threshold of 550,000 troops we began to put the 
Nation at risk for the hardest things that it may ask us to do.
    Now we are well below that. By terms of comparison in 1940 
to today, our Army today as a per capita percent of the 
population is 30 percent smaller than we were in 1940. No one 
with a right mind would think we were prepared for anything 
that faced us in the future in 1940.
    And yet, here we are. We are making decisions and you guys 
have to put a clean face on it. And I just think we have to 
stop.
    If we don't and are unable to do that and hold the line at 
480,000, how do we retain the mid-level folks that we cannot 
readily replace even in a drastic emergency? A draft is not 
going to help it or a mobilization. Nothing will help it.
    Nothing will recreate this mid-level experience that we are 
now diminishing, and 30,000 more troops cut--we won't replace 
that. It will take absolute years.
    Has the Army looked at anything, and do we have any 
constraints on you to retain these soldiers in some type of 
force structure, where there is reduced troops in units, but 
yet the structure and the experience is manned?
    General Allyn. Thanks, Congressman Russell. I will 
highlight a couple points, and obviously if General Anderson 
wants to reinforce he will do so.
    But two key areas that we are focused on as we try to 
retain critical leadership capacity. As you know, our 
generating force is normally the place you go to get the cadre 
that enables you to stand up a new organization.
    The challenge we face today is we cut that generating force 
to the bone to retain as much combat power as we could. Today 
in the United States Army, the total force, 24 percent of our 
force is in the generating force. It is the smallest of any 
service in the Department of Defense. So we don't have the 
cadre available in the generating force.
    As we go through the analysis process annually we are 
looking at ways to thicken the generating force by replacing 
some of the civilians that replaced our military during the 
surge to enable us to get more soldiers into our growing 
formations as one of the ways to restore a little bit of 
regeneration capacity.
    But frankly, we are talking very small numbers. It might be 
enough to build a single formation back. So it will not get us 
much.
    The second area that the Chief of Staff of the Army has us 
looking at is train, advise, and assist brigades so that we 
have brigades and battalions of leaders in formations who are 
performing the train, advise, and assist missions on a day-to-
day basis in support of current operations, and also then 
provide you some regeneration capacity that you can fill it 
with soldiers and the specialty capabilities that you don't 
need for the train, advise, and assist mission but that you 
need for a warfighting formation.
    Again, this will provide us some--and again, there is no 
free chicken in our budget. So if we are going to stand up a 
train, advise, and assist brigade, something else is coming out 
unless we get an increase in our end strength.
    Mr. Russell. Well, and I appreciate that. I am out of time, 
but we stand committed to hold that line. Congressman Gibson 
and I and others stand committed to hold that line if we got to 
do anything that we can to convince people.
    And there is money out there on stupid things that we are 
spending right now that we can find and resource and reshift so 
that we no longer place our Nation beyond risk.
    And with that, thank you for your indulgence, Madam 
Chairman.
    Ms. Stefanik. Mr. Gibson.
    Mr. Gibson. Thanks, Madam Chair.
    And I want to welcome the witnesses. Thank you for your 
leadership, sacrifices of your family.
    I am encouraged to hear what General Milley has--some of 
this latest guidance. For some time I have been thinking that 
that would probably be a smart move, and also a way, I think, 
of pulling in the Guard to manage risk. So I look forward to 
hearing more on that.
    As you know and as Mr. Russell just mentioned, Mr. O'Rourke 
previous to that, is we do have a bill and, you know, it does 
indeed stop the drawdown. We are building bipartisan momentum 
on it and we have spent the last couple months building the 
public record to explain. And today is another opportunity of 
that, a chance to speak to the American people of the 
criticality of stopping this drawdown.
    So I know that there has been a lot already said on the 
record, so if you feel that you have already captured that 
there is no need to amplify any further. But in terms of the 
risk to the combatant commanders and the requirements we have, 
how long it would take to reconstitute formations in the event 
that we deactivate them, and we just talked about some of the 
details here moments ago; the risk to OPTEMPO, PERSTEMPO 
[personnel tempo], to troops and families; and the criticality 
that, if we are successful in stopping the drawdown, that we 
don't hollow out the force, that we make sure that we get that 
all right.
    So I just wanted to say that this is an--if you felt like 
you needed to add anything else to the public record you could 
do that.
    And then let me pivot to my question, which is on the 
Global Response Force. I am interested in knowing in this 
budget in 2017 how many JFEXs [joint forcible entry exercises] 
have been budgeted for? What about echelons above BCT and even 
division in terms of joint training and simulation?
    And if you care to make any comments about the 440th, too, 
in terms of jumper proficiency.
    So I guess the first thing is anything you want to add on 
posture act, and then a question on joint training.
    General Allyn. Thanks, Congressman. I will first of all 
say, because I don't think I have reinforced it enough--many of 
you have spoken to it--but it must come with a topline increase 
in dollars, all right?
    Stopping the drawdown without funding those personnel and 
the training and readiness required to deliver them as 
something other than a hollow force, it has got to be a 
package. If you just stop the drawdown and you don't increase 
our funding, you just add to the burden of the imbalance that 
exists in our force.
    So it must come together, and I know you appreciate that.
    To your point about the Global Response Force I will first 
talk to what we have done and will do for the rest of this 
year. We had a major exercise that went from the corps level 
down through BCT to special forces group, fully integrated 
joint forcible entry exercise out of the National Training 
Center this past August that absolutely exercised the no-notice 
deployment capacity, the full joint integration, the 
integration of close air support provided by the United States 
Air Force. It was a full-spectrum no-notice joint forcible 
entry exercise and really provided great feedback to us of 
where we stand and where we still need to build on capability.
    Just this past--well, actually earlier this month we did a 
simultaneous EDRE [emergency deployment readiness exercise] for 
the Global Response Force of a Patriot battery to the Republic 
of Korea and a brigade combat team command node with the lead 
task force of the current Global Response Force from the 82nd 
into Fort Hood, Texas. Both of those no notice, both of them 
providing immediate demands on responsiveness and assessing the 
current readiness of our force, fully supported by TRANSCOM 
[Transportation Command] and the United States Air Force to 
very, very good results.
    We have programmed in the President's budget four EDREs for 
this coming fiscal year. I won't tell you what they will look 
like or else it wouldn't be an EDRE anymore, but they will 
stress us in a no-notice way and give us feedback on just how 
ready we are and what we need to do to improve.
    In support of General Hodges, an upcoming exercise will 
incorporate a joint forcible entry component that will involve 
an EDRE of that capability from units you would be familiar 
with, and it will provide us not only all that I have talked 
about previously but also interoperability opportunities as 
well as mission command integration with our partners in 
Eastern Europe.
    And, Joe, I don't know if you want to add----
    General Anderson. You hit all those.
    And, Congressman, I will finish up with our other favorite 
topic, the 440th.
    But the issue as we work with the North Carolina delegation 
is we have an agreement with the Air Force through the JAAT 
[joint air attack team] process that we will track what support 
the 82nd and all core Bragg units receive via that process, and 
we will track the delta between what the 440th used to provide 
kind of ad hoc, because it really wasn't tracked, and all 
things from jumpmaster proficiency to exercise augmentation, to 
static load training. But we have a tracker now; we follow 
every month what they are doing, and that will be the course of 
the year to see what the differences are or are not, based on 
the lack of the 440th.
    Mr. Gibson. Well, thank you gentlemen. My time is expired.
    Ms. Stefanik. Ms. Bordallo.
    Ms. Bordallo. Thank you, Madam Chairman.
    I have a question for General Allyn. What does rebalancing 
to the Pacific mean specifically to the Army? Do you have 
enough assets to carry out your mission in the Pacific?
    And what impact, if any, has the rebalancing to the Pacific 
had on missions elsewhere, such as the continuing requirement 
to train and equip anti-ISIS [Islamic State of Iraq and Syria] 
forces in Southwest Asia and the requirement to increase our 
presence in Europe? So what impact has all this had?
    General Allyn. Thank you ma'am. I will highlight, first of 
all, rebalance to the Pacific for the Army I think just put a 
spotlight on how committed we have remained in the Pacific. As 
stated earlier, we have 75,000 soldiers assigned to the Pacific 
today. They have not only continued to be present and heavily 
involved in the Pacific Pathways exercises, but we have also 
reinforced them with total force capability aligned to specific 
exercises in each of those series of exercises that General 
Brooks executes.
    So we have a strong commitment to the Pacific and we have 
protected the vast majority of our formations in the Pacific 
from the global demands that are being supported from the rest 
of our Army. So they are not only in the Pacific, but they are 
prioritized to support the needs of the Pacific.
    And what that has done actually is placed increased stress 
on the rest of our Army to meet the global demands elsewhere, 
so it doesn't come without an impact.
    I do believe we have been able to meet the vast majority of 
the needs that Admiral Harris and General Brooks have for the 
Army in the Pacific, and we remain responsive to any capability 
gaps that surface.
    Joe, did you want to add----
    General Anderson. Ma'am, the issue is going to be down the 
road how long we can preserve what the Vice just talked about. 
So as you talk about, for example, three-star headquarters 
requirements in Iraq, right now we have a corps headquarters 
there, the 3rd Corps from Fort Hood; we have the 18th Airborne 
Corps from Bragg getting ready to go. And on that three-to-one 
model that would mean the 1st Corps, which is assigned to the 
Pacific, would potentially have to be a solution the year after 
the 18th Airborne Corps to become the three-star Combined Joint 
Task Force headquarters in Baghdad.
    So the question becomes at what point can we--do we have to 
not preserve what is in the Pacific to meet requirements? And 
that could apply to brigade combat teams and other enablers as 
well, depending on how long these operations continue.
    Ms. Bordallo. So what you are saying then, Generals, is 
that the requirements are met in both areas.
    General Anderson. They are, but the issue will be at what 
point do you have to break the glass. Right now all 
requirements that the Pacific is asking us for, between 
exercise requirements on the Korean Peninsula and all points 
elsewhere, are fine, but the issue will be how long can we 
sustain based on the recurring demand that we continue to have 
in the Mideast. That is going to be the tradeoff here, 
potentially at some point.
    Ms. Bordallo. Thank you.
    And I have two quick questions for General Perna. To what 
extent has the Army been able to ensure that prepositioned 
projects needed to support force projection are ready and 
available to meet requirements. And does the Army expect to 
address any such concerns as part of its readiness recovery 
efforts? And how?
    General Perna. Yes ma'am. So we have done quite a bit of 
work on putting our prepositioned stock, making sure that the 
equipment is ready.
    As you know we have five sets located around the world with 
different types of equipment by different types of units. The 
emphasis we are putting on that is: one, maintaining the 
equipment on-hand to full capability; and then second, ensuring 
its readiness for use. Our ability to be able to take it off 
the ship and use it immediately is been a big priority for us.
    We have increased this emphasis over the last couple years 
and we will continue to do so in the near future, as I see it. 
And the support inside the budget will allow us to do that.
    Ms. Bordallo. Very good. To what extent does the Army's 
prepositioning strategy have the flexibility to meet potential 
requirements in other theaters or locations over particular 
time-sensitive missions? And if so, how does this flexibility 
affect the Army's readiness recovery efforts?
    General Anderson.
    General Anderson. Ma'am, I thought you were picking on 
Perna. How did it come over here?
    We do have the flexibility. So we are balancing--the issue 
right now is Europe. I think that is what you are probably 
referring to.
    So how do we preserve requirements in the Pacific, how do 
we make sure we preserve the Mideast, and how do we build? And 
the National Commission, of course, gave us some 
recommendations on this. But right now the answer is we do have 
the flexibility and we--with the Vice here we just--we had an 
old strategy; we had to reprioritize that based on Russia 
because all the assumptions have proven to be wrong based on 
defense planning guidance, so we have to recalculate.
    So part of the total Army analysis process has led us to 
figure out how do we recoup equipment to regenerate equipment 
to build capacity in Europe. And that is how we are going to do 
it.
    So you referenced the 225 conversion in Hawaii as we move 
those Strykers from the island to the West Coast, how we recoup 
from the West Coast Guard--principally the 81st between 
Washington, Oregon, and California--but how do we recoup that 
equipment to modernize it and send it forward? And based on 
doing heel-to-toe rotations now in Europe with armored brigade 
combat team versus the European activity set that we had been 
following on top of, we will now take that European activity 
set and build a base of APS-2 [Army Prepositioned Stock 2], 
which is the Europe set, and that is how that will 
reconstitute.
    So right now we are shuffling, but we do have--to answer 
your question, we do have flexibility and options in there to 
make that happen.
    General Allyn. And your support of ERI [European 
Reassurance Initiative] in this President's budget is 
absolutely essential for us to meet the timeline that has been 
prescribed to us by the Secretary of Defense. If we are funded 
fully with ERI we will have the armored brigade combat team APS 
set established by the end of 2017. So it is critical that we 
receive that funding, ma'am.
    Ms. Bordallo. Thank you, General. You took the words out of 
my mouth.
    I want to thank you, the three of you and other leadership 
in the Army, for doing a great job. As long as the funding is 
there, we will be able to carry on.
    Thank you and I yield back.
    Ms. Stefanik. Mr. Russell?
    Thank you, General Allyn, General Anderson, and General 
Perna, for your testimony today and for your leadership and 
service to our Nation. We appreciate your feedback and we look 
forward to continuing to work with you to make sure that we are 
fully supporting Army readiness.
    With that, this hearing is adjourned.
    [Whereupon, at 9:28 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           February 26, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 26, 2016

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MS. DUCKWORTH

    General Allyn. The Army is aware of several projects at Fort 
Gordon, GA, Fort Hood, TX, and Schofield Barracks, HI with the 
potential to be conversion candidates. For this subset of potential 
conversion/repair projects, the Army estimates the savings and/or cost 
avoidances from pursuing the potential conversion candidates as repairs 
would be 20 percent or more, when compared to a new ``green grass'' 
military construction (MILCON) project.
    The Army continues to refine this estimate and will provide further 
updates as more due-diligence is performed. The estimate is anecdotal, 
based on feedback from installations known to be interested in pursuing 
conversion projects. Garrison staff are well aware of the statutory 
limits and therefore do not prepare detailed conversion project 
candidates not awardable or executable under current law. If the law 
were changed, the Army anticipates more conversion projects would be 
developed.
    One of the sources for savings and/or cost avoidances is the fact 
that existing facilities are often smaller in size than the current new 
construction replacement standard. This is especially true for Company 
Operations Facilities. Converting an existing facility into a 
functional solution today is significantly less expensive than an 
optimal MILCON facility solution that would be significantly larger in 
square footage. Another factor is new ``green grass'' MILCON projects 
require utility line extensions from the main grid to the new site. A 
conversion conducted as a repair avoids most utility extensions, which 
can add 15 to 30 percent to the MILCON cost. The existing building 
typically is in the cantonment area, and/or is already served by 
utilities.   [See page 21.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2016

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. ``Sustainable Readiness'' is replacing Army Force 
Generation (ARFORGEN) as the Army's force-generation concept. Under 
development for more than a year, Sustainable Readiness is intended to 
shift the Army from a regimented, event-driven force-generation 
strategy to one that is synchronized and fluid to maximize readiness 
across the total force. The Chief of Staff of the Army has directed 
that Sustainable Readiness will be implemented by fiscal year 2017.
    1. Please summarize the key differences between ARFORGEN and 
Sustainable Readiness. What problem is Sustainable Readiness attempting 
to solve? Why was ARFORGEN unable to solve it?
    2. What have been the chief obstacles over the past year to 
developing the concept? What obstacles remain?
    3. What key decisions need to be made, or actions taken, to 
implement Sustainable Readiness by fiscal year 2017?
    4. Has the Army established specific goals that are to be met 
through Sustainable Readiness? How are these goals related to the 
overarching objective of sustaining 66 percent of the active component 
force in a combat-ready status?
    5. To what extent is the FY17 budget submission consistent with the 
resource requirements needed to support Sustainable Readiness?
    General Allyn. 1. ARFORGEN and Sustainable Readiness (SR) are 
fundamentally different because each model was designed to optimize 
readiness production for two dramatically different operational 
environments. While ARFORGEN policy was designed to optimize readiness 
for a sustained wartime environment, SR was designed to optimize 
readiness for an anticipated dynamic operational environment.
    In practice, SR is different than ARFORGEN in four distinct ways: 
First, SR seeks to sustain optimized levels of readiness throughout the 
Total Force by normalizing manning and synchronizing both equipping and 
modernization milestones with operational requirements. Conversely, 
ARFORGEN maximized readiness for comparatively shorter, discrete 
periods by surging resources to satisfy near-term manning, equipping, 
and modernization efforts in support of a unit Latest Available Date 
for a specified deployment mission. This surge quality delivered just-
in-time readiness at the expense of those units just returning from 
Iraq and Afghanistan whose personnel and equipment were harvested and 
redistributed to deploying units.
    Second, SR focuses Reserve Component (RC) readiness generation on 
meeting the requirements of combatant commanders as designated by 
existing Army War Plans. Conversely, ARFORGEN focused on meeting the 
demands of known requirements (Afghanistan, Iraq, etc) with selected RC 
capabilities.
    Third, SR assesses the Army's ability to meet combatant commander 
requirements, in both Global Force Management Allocation Plans (GFMAP) 
as well as War Plans. SR then provides Army leaders with appropriate 
mitigation strategies for identified shortfalls, consistent with 
available resources. ARFORGEN was designed to maximize unit readiness 
to meet GFMAP requirements, accepting risk in the Service's ability to 
generate surge capacity to meet War Plan requirements.
    Finally, SR extends the Army's operational planning timeline by 
analyzing the Army's ability to meet requirements four years into the 
future. This will allow the Army's leadership to synchronize resource 
decisions with the development of our Program Objective Memorandum 
(POM). ARFORGEN considered a more narrow scope of requirements two 
years in advance of execution; these often conflicted with timely 
resource decision timelines tied to POM build.
    2. There have been three challenges with operationalizing 
Sustainable Readiness as an enduring Army concept.
    The current operating environment is the first challenge to 
operationalizing sustainable readiness. The Army adapted its readiness 
concept as the world grew increasingly complex, threats to the U.S. 
changed dynamically, and resource allocation decreased. The very 
factors that make sustainable readiness necessary therefore also make 
its implementation difficult. To overcome this challenge, the Army 
elected to leverage existing processes wherever possible, thus 
minimizing operational impacts, and modify these processes as needed to 
meet the needs of this new dynamic operating environment.
    Second, the analytical demands of the Sustainable Readiness model 
required a detailed analysis of existing War Plan requirements at the 
Standardized Readiness Code (SRC) level. Doing this was both manpower 
intensive and time consuming. An automated approach to this process, 
currently being developed and on-track for implementation later this 
year, will allow us to complete a comprehensive assessment of all Army 
units that will fully inform our resource decisions for the Fiscal 
Years 2019-2023 Program Objective Memorandum.
    A third critical obstacle is the down-sizing of our Force. 
Personnel shortfalls, exacerbated by our medical non-readiness 
challenges cause personnel readiness to be the limiting factor in 
achieving the optimal readiness sought with a sustainable readiness 
program.
    3. With publication of Army Directive 2016-05, the Army formally 
adopted Sustainable Readiness as the Army's new force generation 
process. Implementation is on track for Fiscal Year 2017.
    The Army is now adjusting existing policies to align with and 
support the Sustainable Readiness process. The most significant of 
these policies is Army Regulation AR 525-29, Army Force Generation. 
This regulation is currently under revision and is on-track for 
publication in the fall of 2016.
    The Army is transforming the Medical Readiness systems to improve 
the access, visibility, and transparency of medical readiness 
information for commanders at all levels and streamline the processes 
by which they make deployability determinations. As part of this 
transformation, the Army is simplifying the Medical Readiness 
Classification codes, which are used to identify Soldier deployability; 
making enhancements to the Commander's portal and other IT systems; 
making revisions to major medical and administration policies and 
regulations; and conducting training across the force on the new 
policies and enhanced systems.
    4. Yes. The Army's Sustainable Readiness goals are based on 
combatant command and war plan requirements. The Sustainable Readiness 
goal for individual unit readiness is to maintain C1 readiness of 
Active Component units for at least 9 months after first C1 report. The 
two-thirds (66 percent) goal for Regular Army readiness is predicated 
on keeping as much-as-possible of a smaller Army ready to meet those 
requirements. At current demands and force structure, it will be 
difficult to meet the two-thirds readiness goal.
    5. The FY2017 budget submission is consistent with the priorities 
of sustainable readiness, but does not fully fund its requirements, as 
the Army is only able to fund 80 percent of home station training/
ground OPTEMPO and 86 percent of aviation flying hours. Despite our 
prioritization of readiness, this shortfall will impact our ability to 
optimize total force readiness. This budget request reflects the Army's 
best effort to balance manpower, readiness, and modernization within 
available funding.
    Ms. Bordallo. Army units are required to maintain a minimum level 
of personnel in order to sustain readiness. With the Army downsizing 
its overall end strength, the ability to fill units above authorized 
end strength (in order to cover medically non-deployable personnel, for 
example) will no longer exist. Additionally, under Sustainable 
Readiness, the individual units will need to sustain high levels of 
authorized personnel over longer periods, potentially impacting 
opportunities for leadership development and professional military 
education (PME).
    1. To what extent has the Army examined its personnel management 
policies in light of the plans to implement Sustainable Readiness?
    2. How does the Army plan to adjust its policies for classifying 
deployable and non-deployable personnel?
    3. What changes, if any, are required to ensure that units 
returning from a deployment no longer have a large fraction of their 
personnel leave for another unit assignment?
    4. The Army Chief of Staff's readiness guidance stresses the 
importance of leadership development and reforms to the Army's system 
of PME. What are the challenges of balancing the need for consistent 
and sustained levels of personnel at the unit level, with the need to 
provide future Army leaders with the time they require to develop their 
leadership skills?
    General Allyn. 1. To enable Commanders to more effectively manage 
forces and maximize unit deployability, the Army is adapting its 
personnel readiness reporting. Army Directive 2016-07 integrates 
redefined administrative and medical deployment determinations with a 
new readiness reporting process. This new integrated process allows 
commanders to more efficiently manage, communicate, and report the 
readiness of their Soldiers, thus maximizing the deployability of their 
units.
    Due to the scope and pace of Army downsizing, personnel readiness 
is more critical than ever to a unit's worldwide mission 
accomplishment. The Army is transitioning its cultural mindset to 
emphasize the importance of individual readiness and deployability 
standards. Tools will be provided to the lowest level in order to more 
accurately capture readiness. These tools include the Commander's 
portal, which includes access to e-Profile, Medical Protection System, 
Individual Disability Evaluation System Dashboard, and Medical 
Readiness Assessment Tool. All of this will allow real-time management 
of medical and personnel readiness in authoritative databases.
    2. The recently approved Army Directive 2016-07 integrates 
redefined administrative and medical deployment determinations with a 
new readiness reporting process. This new integrated process will allow 
commanders to more efficiently manage, communicate, and report the 
readiness of their Soldiers, thus maximizing the deployability of their 
units.
    3. Our intent is to reduce personnel turbulence and contribute to 
better steady-state personnel readiness over time. This will require 
Commanders to support leader attendance at PME throughout the unit life 
cycle. This balanced approach will help limit the peaks and valleys of 
unit manning often experienced under the ARFORGEN model.
    4. Our intent is to reduce personnel turbulence and contribute to 
better steady-state personnel readiness over time. This will require 
Commanders to support leader attendance at PME throughout the unit life 
cycle. This balanced approach will help limit the peaks and valleys of 
unity manning often experienced under the ARFORGEN model.
    Ms. Bordallo. The Army Chief of Staff has noted that the ability to 
conduct Decisive Action in support of Unified Land Operations to deter, 
deny, compel, and/or defeat the threat of hybrid warfare posed by 
nation-states represents the most demanding challenge on Army forces 
and is the benchmark by which Army readiness will be measured. Further, 
the Army has stated that it will develop standardized mission essential 
task lists (METLs) for Decisive Action for types of units and echelons 
down through the company level. However, combatant commander 
requirements for Army forces do not always require that Army units meet 
these training and readiness standards.
    1. What is the balance between Decisive Action/Unified Land 
Operations training, and training for other competencies?
    2. What methodology will be used to optimize resources for units 
under Sustainable Readiness in order to balance the demands for units 
that need to meet Decisive Action-level training, with those that 
don't? How will this methodology differ from the Army's previous force 
generation model?
    3. How, if at all, will the Army adjust training proficiency goals 
for units, particularly as they progress through Sustainable Readiness?
    4. What changes, if any, is the Army considering improving the 
linkage of its training funds with the anticipated readiness delivered 
from the training?
    5. To what extent does the Army intend to rely on live, virtual, 
and constructive to supplement live-fire training in support of 
achieving readiness goals?
    General Allyn. 1. The Army balances Decisive Action/Unified Land 
Operations (DA/ULO) training with training for all other competencies 
in line with Combatant Commander requests for forces. If a Combatant 
Commander request for forces indicates specified training requirements 
other than DA/ULO, the Army will adapt the training program 
appropriately. Our objective is to prepare units for full spectrum 
readiness in a DA/ULO training environment, and validate unit readiness 
for specific Combatant Commander missions, as we have successfully done 
for the past 15 years.
    2. The Army will prioritize resources for units in Sustainable 
Readiness with first priority of resources to meet Combatant Commander 
requirements. Commanders will optimize resources to train to Decisive 
Action level proficiency focused on core mission essential tasks for 
both known and contingency requirements. This progression is different 
from ARFORGEN in that resource allocation previously focused on 
combatant commander requirements to a very specific mission, location, 
and point in time.
    3. Training proficiency goals for units will remain in line with 
current Army Training Strategy. Units will train to full spectrum 
readiness on their core mission essential task list tasks, and we will 
optimize resources to sustain this high level of readiness throughout 
each unit's available year.
    4. The Army is developing an objective process that more 
definitively links training resource expenditures with training 
activities and their associated readiness outcomes. Ongoing efforts to 
standardize unit mission essential tasks and to revise readiness 
reporting with improved fidelity and greater objectivity will support 
this effort and comply with requirements for a fully auditable program.
    5. The Army has, and will continue to, rely on live, virtual and 
constructive simulations, simulators, and training devices to enhance 
training. In the live training environment, systems such as the 
Multiple Integrated Laser Engagement System, provide realism and a 
``fair fight'' during force-on-force training. Range systems, such as 
the Digital Range Training System, provide objective data during live 
fire events, helping commanders assess proficiency. Constructive 
simulations, such as the Joint Land Component Constructive Training 
Capability, ``construct'' blue and red forces, indigenous populations 
and real-world terrain to enable mission command training without live 
maneuvering of large formations. Virtual simulators, such as the 
Aviation Combined Arms Tactical Trainer, provide low-cost maneuver 
training opportunities prior to units expending operating tempos--units 
gain proficiency prior to training live. In recent years the Army has 
also introduced Games for Training using a variety of commercial off-
the-shelf games. These provide a very low overhead virtual capability 
on which Individual Soldiers through company size units can hone 
skills, again, prior to maneuvering live. The Army continues to explore 
new technologies that will improve the efficiency and effectiveness of 
our simulations to provide optimal training readiness for our Soldiers 
and units at best value.
    Ms. Bordallo. The Army has identified the need to restore the 
capability of units and leaders to exercise Decisive Action/Combined 
Arms Maneuver operations. Training for such missions has atrophied 
after more than a decade of counterinsurgency operations.
    1. What is the annual requirement of Combined Army Maneuver 
Training Center Rotations needed to restore Army combat forces' 
readiness for Decisive Action operations? Is the throughput capacity at 
the two, U.S.-based combined training centers sufficient to handle this 
requirement? If not, what alternatives has the Army considered to 
augment or supplement this throughput?
    2. How are collective training rotations supplemented by home-
station training under the Army's plan? To what extent does the FY17 
budget submission sufficiently fund Decisive Action training 
progression at home station in between combined training center 
rotations?
    3. Has the Army determined that particular core tasks needed to 
conduct Decisive Action operations are more at risk than others? To 
what extent has the Army established priority areas to train forces to 
be able to conduct Decisive Action operations?
    4. What challenges, if any, does the Army anticipate in 
synchronizing the collective training of core combat brigades, combat 
aviation, artillery, and enabler units in support of restoring Decisive 
Action competencies across the total force?
    General Allyn. 1. Throughput at the Army's three CTCs--two US-based 
and one Europe-based--is sufficient to meet decisive action readiness 
requirements over time. Our current structure requires 19 to 20 CTC 
rotations annually. The requirement in FY17 is 19 rotations--17 Regular 
Army and 2 Army National Guard. GEN Milley has expressed a desire to 
increase CTC rotations for Army National Guard BCTs in future years to 
increase Total Force readiness.
    2. Home-station training is the critical foundation for demanding 
and rigorous exercises conducted at Combat Training Centers. It also 
provides vital training opportunities for units to tailor their 
training program in order to address specific training shortfalls 
identified during CTC exercises. As an integral part of our 
installations as readiness platforms, home station enables units to 
sustain requisite readiness levels over time. While home-station 
training is better resourced in FY2017 than in FY2016, it is only 
funded at 80 percent of training-model requirements due to current 
fiscal constraints. We will do our best to optimize every dollar to 
deliver the best trained units and Soldiers to meet mission 
requirements.
    3. The Army identifies/publishes the fundamental core tasks each 
unit is designed to perform for decisive action during unified land 
operations. This standard Mission Essential Task List (METL) serves as 
the basis for the unit's training to build and report readiness. Army 
training strategies and training support systems are designed to allow 
units to build readiness on standard METL tasks.
    The Army utilizes observed trends in core task proficiency to 
assess risk as part of their existing readiness assessment processes. 
Using these risk assessments, units tailor training plans to 
objectively address core tasks that are identified as at risk. The 
Army's task evaluation procedures further enable objective 
identification of `at risk' core tasks by requiring standardized, 
objective Army-wide reporting of all Decisive Action tasks. Specific 
locations that the Army has prioritized for training forces include the 
Regional Collective Training Capability (RCTC) priority training areas 
to train forces for Decisive Action operations and achieve unit 
proficiency levels for maneuver, live fire and mission command. There 
are 27 installations and training sites designated as a part of the 
RCTC. Eleven are RA CONUS. Four are Active Component OCONUS (one in 
Europe and four in the Pacific). There are nine Army National Guard and 
three U.S. Army Reserve locations. Decision Action training proficiency 
is achieved for Brigade Combat Teams at the Combat Training Centers 
(CTC). CTCs are the National Training Center at Ft Irwin, CA; the Joint 
Readiness Training Center at Ft Polk, LA; and the Joint Multinational 
Readiness Center at Hohenfels, Germany.
    4. The Army constantly adapts its training scenarios to prepare 
units for the full spectrum of conflict from counterinsurgency, to 
hybrid warfare, to Unified Land Operations against a near-peer 
competitor. We also align regional scenarios to unit's known or likely 
employment areas. The Army remains committed to synchronizing 
collective training efforts while restoring Decisive Action 
competencies across the total force. Current focus areas include 
collective training integration for cyber forces, Electronic Warfare 
(EW) units, integration of Special Operations Forces (SOF), and 
enabling reach back capabilities at Decisive Action training events for 
Division Headquarters.
    The Army's Fiscal Year 2017 budget submission supports these 
anticipated challenges by programming additional funds for the Combat 
Training Centers to integrate collective training across the total 
force. Examples include funding for additional mission command fire 
coordination exercises, further integration of Army Space Training 
Initiative events, cyber, SOF, and EW assets, and additional 
opportunities for Information Assurance Support training.

                                  <all>
</pre></body></html>
